        INTERNAL CONTROLS AND COMPLIANCE WITH
          LAWS AND REGULATIONS FOR THE FY 2000
        FINANCIAL STATEMENTS FOR OTHER DEFENSE
             ORGANIZATIONS-GENERAL FUND

Report No. D-2001-060                 February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officers
DFAS                  Defense Finance and Accounting Service
FFMIA                 Federal Financial Management Improvement Act
IG                    Inspector General
OMB                   Office of Management and Budget
SFFAS                 Statements of Federal Financial Accounting Standards
USD(C)                Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2001-060                                                 February 28, 2001
   (Project No. D2001FA-0016)

     Internal Controls and Compliance With Laws and Regulations
               for the FY 2000 Financial Statements for
              Other Defense Organizations-General Funds

                                Executive Summary

Introduction. We performed the audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare annual audited financial statements.
The FY 2000 DoD Agency-wide financial statements include financial statements for a
reporting entity entitled “Other Defense Organizations-General Funds.” The entity
represents a consolidation of financial information from various Defense organizations
and funds that use the Treasury Index 97 symbol, also referred to as Department 97.
(See Appendix B for a listing of Other Defense Organizations-General Funds). Other
Defense Organizations-General Funds reported $42 billion in assets, $201.6 billion in
liabilities, and $58.1 billion in budget authority in the FY 2000 financial statements.

Objectives. The overall audit objective was to assess internal controls and compliance
with laws and regulations used for accounting, reporting, and compiling financial data
to support the FY 2000 financial statements of Other Defense Organizations-General
Funds. In a future report, we will report on the adequacy of the procedures used to
compile and make adjustments to the FY 2000 financial statements of Other Defense
Organizations.

Review of Internal Controls. Overall, internal controls were inadequate. We
identified inadequate controls related to the existence and quality of written procedures;
budgetary reporting; trial balance reporting; preparation of the Military Retirement
Health Benefits Liability estimate; and reporting of Department 97-funded Property,
Plant, and Equipment. Our consideration of internal controls would not necessarily
disclose all reportable conditions and would not necessarily disclose all reportable
conditions that are material weaknesses.

Controls over the process used to compile the Reports on Budget Execution did not
provide reasonable assurance that the reports were accurate and reliable. The Reports
on Budget Execution, as compiled by the Defense Finance and Accounting Service
Indianapolis (Sustaining Forces), included $2.6 billion of net abnormal balances for
open appropriations and $95.3 million of net abnormal balances for appropriation
accounts scheduled to close at the end of FY 2000. The Reports on Budget Execution
contained unreconciled differences with U.S. Treasury Records of $5.8 billion for
disbursements and $1.9 billion for collections.

Controls over the process used to prepare trial balances for inclusion in the financial
statements did not provide reasonable assurance that the trial balances were accurate
and reliable. The Defense Finance and Accounting Service Indianapolis (Sustaining
Forces) used data from Reports on Budget Execution to manually create partial trial
balances for 16 sub-entities contained within 2 of the 51 Other Defense Organizations.
The FY 2000 year-end trial balances included $3.9 billion of net abnormal balances.
Additionally, the FY 2000 year-end trial balances and Reports on Budget Execution
differed by $89.5 billion when reporting similar financial data.

In addition, controls over reporting the Military Retirement Health Benefits Liability
and the Property, Plant, and Equipment did not ensure that amounts supplied to the
Defense Finance and Accounting Service Indianapolis (Sustaining Forces) were
accurate and reliable.

Review of Compliance With Laws and Regulations. We identified instances of
noncompliance with laws and regulations related to the Federal Financial Management
Improvement Act of 1996; section 3512, title 31, United States Code; and the Chief
Financial Officers Act of 1990, and laws governing the claims of the United States
government. Our limited review of the compliance with laws and regulations was
performed in compliance with Office of Management and Budget Bulletin No. 01-02,
“Audit Requirements for Federal Financial Statements,” October 16, 2000, and did not
necessarily disclose all instances of potential noncompliance with laws and regulations
that may be considered material to the financial statements for the Other Defense
Organizations-General Funds reporting entity.

Management Comments. We provided a draft of this report on February 7, 2001.
Although no comments were required, the Deputy Chief Financial Officer provided
comments questioning citations and technical interpretations, and suggested omitting
sections of the report on the internal controls components and the consistency of trial
balances and Reports on Budget Execution.

Audit Response. Generally, we do not agree with the management comments on
citations. For clarification of technical interpretations, we made minor word
modifications to, but did not remove, sections of the report.




                                            ii
Table of Contents

Executive Summary                                              i


Introduction
     Background                                                1
     Objective                                                 2

Review of Internal Controls
     Overview of Material Weaknesses                          3
     Internal Control Components                              3

Review of Compliance With Laws and Regulations
     Reportable Noncompliance                                 14

Appendixes
     A. Audit Process
         Scope                                                19
         Methodology                                          20
         Prior Coverage                                       21
     B. Other Defense Organizations-General Funds             22
     C. Laws and Regulations                                  24
     D. Report Distribution                                   26

Management Comments
     Office of the Under Secretary of Defense (Comptroller)   29
Background

    Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
    [CFO] Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994, requires
    DoD to prepare annual audited financial statements. In addition, the Federal
    Financial Management Act of 1994 requires the Secretary of the Treasury, in
    coordination with the Director, Office of Management and Budget (OMB), to
    prepare Government-wide financial statements. The Inspector General (IG),
    DoD, is not required to render a separate opinion on the financial statements for
    Other Defense Organizations. Information from audits of the financial
    statements of Other Defense Organizations contributed to the disclaimer of audit
    opinion on the DoD Agency-wide financial statements for FY 2000.

    Other Defense Organizations. The entity “Other Defense Organizations”
    represents a consolidation of financial information from 51 Defense
    organizations and funds that use the Treasury Index 97 symbol. The DoD
    Agency-wide consolidated financial statements include two columns for Other
    Defense Organizations: an Other Defense Organizations-Working Capital
    Funds column that includes the financial activity of working capital funds not
    connected with the Military Departments, and an Other Defense Organizations-
    General Funds column that includes the financial activity of all remaining
    organizations and funds using the Treasury Index 97 symbol. This audit
    focused on Other Defense Organizations-General Funds, which reported
    $58.1 billion in budget authority in the FY 2000 financial statements. (Later
    references to Other Defense Organizations in this report will generally refer to
    the Other Defense Organizations-General Funds reporting entity.) Appendix B
    provides a list of the 51 Other Defense Organizations-General Funds for
    FY 2000.

    Accounting Functions and Responsibilities. During FY 2000, Defense
    Finance and Accounting Service (DFAS) accounting offices provided accounting
    support for all Defense organizations that use Treasury Index 97 funds, except
    for the following:

           •   certain organizations supported by the Washington Headquarters
               Services Allotment Accounting System,

           •   the Tricare Management Activity-West, and

           •   organizations required to perform their own accounting because of
               security considerations.

    Compilation Responsibilities. DoD Regulation 7000.14-R, the “DoD
    Financial Management Regulation,” volume 6B, “Form and Content of the
    Department of Defense Financial Statements,” chapter 2, “General Instructions
    for the Financial Statements,” October 2000, requires DFAS, in coordination
    with DoD Components, to prepare financial statements. Beginning in FY 1996,
    DFAS


                                        1
           Indianapolis (Sustaining Forces), was responsible for preparing the financial
           statements for Treasury Index 97 funds. Other Defense Organizations use the
           same DoD form and content guidance as the Military Departments.

           The General Fund Branch1 at DFAS Indianapolis (Sustaining Forces) received
           budgetary information from accounting offices and prepared required Reports on
           Budget Execution for submission to the Under Secretary of Defense
           (Comptroller) and the OMB. The General Fund Branch forwarded those
           Reports on Budget Execution to the Other Defense Organizations Audited
           Financial Statements Team,2 hereafter referred to as the Audited Financial
           Statements Team, also located at DFAS Indianapolis (Sustaining Forces). The
           Audited Financial Statements Team used the Reports on Budget Execution,
           along with trial balances received from supporting accounting offices, to prepare
           financial statements required by the CFO Act.



Objective

           The overall audit objective was to assess internal controls and compliance with
           laws and regulations used for accounting, reporting, and compiling financial
           data to support the FY 2000 financial statements of Other Defense
           Organizations-General Funds.

           In a future report, we will evaluate the procedures used to compile and make
           adjustments to the FY 2000 financial statements of Other Defense
           Organizations. Appendix A discusses audit scope, methodology, and prior
           coverage; Appendix B lists the DoD organizations and funds that comprise the
           Other Defense Organizations-General Funds for FY 2000; and Appendix C lists
           the laws and regulations reviewed.




1
    The General Fund Branch was previously known as the Defense Agency Team.
2
    The Other Defense Organizations Audited Financial Statements Team is a new DFAS team formed
    during FY 2000 and is dedicated to preparing financial statements for the Other Defense Organizations.


                                                      2
Review of Internal Controls

Overview of Material Weaknesses

    Reportable conditions are matters coming to our attention relating to significant
    deficiencies in the design or operation of the internal controls that, in our
    judgment, could adversely affect the organization’s ability to effectively control
    and manage its resources and to ensure reliable and accurate financial
    information for use in managing and evaluating operational performance. A
    material weakness is a reportable condition in which the design or operation of
    the internal controls does not reduce to a relatively low level the risk that error
    or irregularities could occur. Such errors or irregularities would be in amounts
    that would be material to the statements being audited and would not be detected
    in a timely manner by employees in the normal course of performing their
    functions.

    We performed applicable tests of the internal controls to determine whether the
    controls were effective and working as designed. We identified inadequate
    controls related to the existence and quality of written procedures; budgetary
    reporting; trial balance reporting; preparation of the Military Retirement Health
    Benefits Liability estimate; and reporting of Department 97-funded Property,
    Plant, and Equipment. Our consideration of internal controls would not
    necessarily disclose all reportable conditions and would not necessarily disclose
    all reportable conditions that are material weaknesses.



Internal Control Components

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, implement section 3512, title 31, United States
    Code, which requires management to establish and maintain a comprehensive
    management control system, including internal controls, and to monitor and
    report on the system. Statement on Auditing Standards No. 78, “Consideration
    of Internal Control in a Financial Statement Audit: An Amendment to
    Statement on Auditing Standards No. 55,” defines internal controls as a process
    performed by management or other personnel, designed to provide reasonable
    assurance regarding the achievement of objectives in the following
    categories: reliability of financial reporting, effectiveness and efficiency of
    operations, and compliance with applicable laws and regulations. Statement on
    Auditing Standards No. 78 states that the internal control structure consists of
    the five interrelated components listed in Figure 1.




                                         3
                                  Control Environment



                                    Risk Assessment




                                   Control Activities




                            Information and Communication



                                       Monitoring



               Figure 1. Five Elements of Internal Control Structure


Control Environment
     The control environment includes factors that set the tone of an organization,
     influencing the control consciousness of its employees. The control
     environment includes several organizational factors, such as management’s
     philosophy and commitment to competence. Although DoD is making progress
     in developing written procedures, audits continue to identify many opportunities
     for accounting offices to improve the control environment by developing and
     improving standard operating procedures.

     Improvements in the Control Environment. DFAS Indianapolis (Sustaining
     Forces) took action to improve the controls over the process used to compile the
     financial statements prepared for the Other Defense Organizations by preparing
     a Journal Voucher Manual and documenting the consolidation and compilation
     processes.

            Journal Voucher Manual. During FY 2000 the Audited Financial
     Statements Teams formed the Journal Voucher Working Group, with advisory
     members from the IG, DoD, and prepared the Recurring Journal Voucher
     Handbook, August 24, 2000. The handbook includes detailed written
     explanations to support 33 journal vouchers which the Audited Financial


                                         4
Statements Teams routinely prepare when compiling the annual financial
statements for the Army General Fund, Army Working Capital Fund, and Other
Defense Organizations-General Funds.

       Documentation of Consolidation and Compilation Processes. During
the FY 2000 compilation cycle, the Audited Financial Statements Team initiated
a systematic process of documenting each step in the consolidation and
compilation processes. The documentation effort is ongoing and the team
intends to complete a set of formal procedures after the compilation cycle
concludes.

Deficiencies in the Control Environment. During FY 2000, audits identified
multiple control deficiencies related to inadequate written procedures at
accounting offices that perform accounting for the Other Defense Organizations,
including those accounting offices shown in Table 1.

         Table 1. Accounting Offices With Deficient Written Procedures*

                                                    Accounting Offices

                                 Defense
                                  Agency
                                 Financial                                        DFAS
                                 Services        Washington                      St. Louis
        Area of Control         Accounting       Headquarters      DFAS          Operating
         Deficiency               Office           Services       Cleveland        Site


 Trial balance reviews               √                √

 System instructions                                  √

 Review of undistributed                                              √
  disbursements

 Reporting property,                                                                    √
  plant, & equipment

 *
     Areas without a checkmark indicate that the control area was not reviewed at the
     specific accounting office.



       Defense Agency Financial Services Accounting Office. The Defense
Agency Financial Services Accounting Office, an accounting office within
DFAS Indianapolis (Sustaining Forces) which provided accounting support for
18 Other Defense Organizations in FY 2000, had a written procedure requiring
accountants to review trial balances for abnormal balances. However, as
written, the procedure did not provide detailed instructions for performing the
review and was never fully implemented.




                                             5
            Washington Headquarters Services. The Washington Headquarters
     Services did not have written procedures requiring accountants to review trial
     balances and instructing accountants how to perform reviews. Further, as the
     owner and system support office for the Washington Headquarters Services
     Allotment Accounting System, which provides accounting support to multiple
     Defense organizations, Washington Headquarters Services published a design
     manual and a user's manual to assist users in operating the system. Neither
     manual provided adequate instructions so that accounting personnel could
     research, review, and correct trial balances produced by the accounting system.

            DFAS Cleveland. DFAS Cleveland prepared quarterly trial balances for
     Department 97 funds allocated to the Navy but did not have procedures to
     research and resolve undistributed disbursements that contributed to abnormal
     balances of $711 million on the Department 97 trial balances.

            DFAS St. Louis. DFAS St. Louis, one of many accounting offices
     responsible for reporting Property, Plant, and Equipment purchased with
     Department 97 funds, did not have standard operating procedures for reporting
     Property, Plant, and Equipment.


Risk Assessment
     For financial reporting purposes, an entity’s risk assessment is its identification,
     analysis, and management of risks relevant to the preparation of financial
     statements. The DFAS Indianapolis (Sustaining Forces) FY 2000 Federal
     Managers Financial Integrity Act Annual Statement of Assurance identified the
     following categories of material control weaknesses, which have a high risk of
     contributing errors to the financial statements prepared for the Other Defense
     Organizations:

            •   problem disbursements, and

            •   reconciliation of suspense accounts.

     Problem Disbursements. When properly recorded in the accounting records,
     disbursements should liquidate obligations and accounts payable; however,
     DFAS Indianapolis (Sustaining Forces) acknowledged the existence of problem
     disbursements. Problem disbursements are grouped into the three categories
     shown in Table 2.




                                          6
            Table 2. Categories and Definitions of Problem Disbursements

      Category of Disbursements                            Definition

        In-transit                    Disbursements paid by a disbursing office, but
                                      not yet received by the accounting station.

        Unmatched                     Disbursements paid by a disbursing office, but
                                      not yet matched to an obligation.

        Negative unliquidated         Disbursements paid by a disbursing office and,
        obligation                    when applied to specific obligations, exceed the
                                      recorded obligation amounts.



     Until corrected, problem disbursements continue to impair the reliability of
     balances reported for obligations and accounts payable.

     Reconciliation of Suspense Accounts. DFAS Indianapolis (Sustaining Forces)
     uses suspense accounts, such as the Budget Clearing Account (Treasury
     symbol 3875), Deposits in Transit (Treasury symbol 3878), and Undistributed
     Intragovernmental Payments (Treasury symbol 3885), to record transactions
     awaiting research, correction, and reconciliation. The transactions in the
     suspense accounts, until fully resolved, pose a control risk to the balances on the
     financial statement.


Control Activities and Information and Communication
     Control activities are the various policies and procedures that help ensure that
     the necessary actions are taken to address risks and to achieve the entity’s
     objectives. The information system relevant to financial reporting objectives,
     which includes the accounting system, consists of the methods and records
     established to do the following:

            •   record, process, summarize, and report entity transactions, and

            •   maintain accountability of the related assets and liabilities.

     Communication involves providing an understanding of individual roles and
     responsibilities for internal control over financial reporting. To be effective, the
     information and communication systems must identify and record all valid
     transactions on a timely basis; properly measure the value and record
     transactions in the proper time period; properly present and disclose
     transactions; and communicate responsibilities to employees.

     Controls Over Budgetary Reporting. Controls used to compile departmental
     Reports on Budget Execution did not provide reasonable assurance that the
     information on those reports was accurate and reliable. Because the Audited


                                          7
            Financial Statements Team used data from the Reports on Budget Execution to
            prepare the financial statements, the reliability of the Reports on Budget
            Execution was essential. Figure 2 illustrates the flow of budgetary data from
            the Reports on Budget Execution to the financial statements.




                 General                 Reports                    Audited
                  Fund                     On                       Financial               Financial
                 Branch                  Budget                    Statements              Statements
                                        Execution                     Team


                         Figure 2. Flow of Budgetary Data to Financial Statements



                     Abnormal Balances on the Reports on Budget Execution for Open
            Appropriations. For the Other Defense Organizations open appropriation
            accounts, the General Fund Branch at DFAS Indianapolis (Sustaining Forces),
            prepared Reports on Budget Execution at the end of FY 2000 that contained
            $2.6 billion of net abnormal balances on 10 different lines. Of the $2.6 billion,
            at least $2.5 billion was not explained in required footnotes. The aggregated net
            abnormal balances for 2 of the 10 lines were material to the Other Defense
            Organizations financial statements:

                     •    “Spending Authority From Offsetting Collections, Earned:
                          Receivable from Federal Sources” (line 3A2) reported $1.9 billion,
                          and

                     •    “Obligated Balance, Net as of October 1” (line 12) reported
                          $317 million.

            The Audited Financial Statements Team used data from the Reports on Budget
            Execution prepared for open appropriations to compile the Statement of
            Budgetary Resources and Statement of Financing.

                    Abnormal Balances for Appropriation Accounts Scheduled to
            Close. Fifteen of the Other Defense Organizations appropriation accounts that
            were scheduled to close3 in FY 2000 reported $95.3 million of abnormal
            balances in accounts payable. The existence of abnormal balances at the time an
            appropriation account is scheduled to close is indicative of control deficiencies
            in the procedures4 for reviewing, reconciling, and managing accounts payable.
            Additionally, accounts payable for closed appropriation accounts are required to


3
    For fixed appropriations, section 1552, title 31, United States Code, requires that the “appropriation
    account” be closed on September 30 of the 5th fiscal year after the period of availability for obligation.
4
    DoD Regulation 7000.14-R, DoD Financial Management Regulation, volume 4, chapter 9, “Accounts
    Payable,” requires DoD entities to annually reconcile reported accounts payable to supporting
    documentation, research differences, and fully document necessary adjustments.


                                                        8
           be reported as a current liability on the Balance Sheet under “Other Liabilities;”
           therefore, the control deficiencies related to accounts payable for closed
           appropriation accounts impaired the reliability of the Balance Sheet.

                  Differences Between Reports on Budget Execution and
           U.S. Treasury Records. The Reports on Budget Execution prepared by the
           General Fund Branch contained unreconciled differences with U.S. Treasury
           records of $5.8 billion for disbursements and $1.9 billion for collections.
           DFAS Indianapolis (Sustaining Forces) was unable to reconcile the differences
           between budgetary data received from accounting offices and the data received
           from disbursing stations, as required by the Department of the Treasury.5 To
           accomplish a full reconciliation, DFAS Indianapolis (Sustaining Forces) is
           implementing the Defense Cash Accountability System and the Cash
           Management Report process.

                          Defense Cash Accountability System. The Defense Cash
           Accountability System is a DoD-wide cash accountability system designed to
           standardize expenditure reporting and electronically transfer expenditure
           transactions from disbursing stations directly to accounting stations. DFAS is
           implementing the system incrementally and anticipates full implementation in
           FY 2005. If successfully implemented, the Defense Cash Accountability System
           should help to mitigate the Other Defense Organizations problems with
           undistributed6 disbursements and collections.

                          Cash Management Report. The Cash Management Report is a
           reporting process that DFAS Indianapolis (Sustaining Forces) created to provide
           accounting offices with the necessary information to fully account for their
           portion of undistributed cash balances. DFAS Indianapolis (Sustaining Forces)
           attempted to implement the Cash Management Report process during FY 2000
           but was not successful and had to suspend the program. DFAS Indianapolis
           (Sustaining Forces) intends to resume full use of the Cash Management Report
           during FY 2001.

           Controls Over Trial Balance Reporting. The Audited Financial Statements
           Team primarily uses trial balances to prepare the Balance Sheet, Statement of
           Net Cost, and Statement of Changes in Net Position. Therefore, the quality of
           the trial balances directly impacts the quality of the financial statements. Major
           control weaknesses are described below; however, specific details describing the
           extent and nature of the deficiencies and the actions taken by DFAS Indianapolis
           (Sustaining Forces) will be described in a subsequent audit report addressing the
           consolidation and compilation processes.

                   Manually Created Trial Balances. Because accounting offices
           supporting the Other Defense Organizations do not submit trial balances for all
           of the Other Defense Organizations entities and sub-entities, the Audited
           Financial Statements Team used data from the Reports on Budget Execution to
5
    Treasury Financial Manual, volume 1, part 2, chapter 5100, “Reconciling Fund Balance With Treasury
    Accounts,” October 1999, requires Federal agencies to reconcile the Fund Balance With Treasury
    account in the general ledger to the disbursing data prepared by disbursing stations.
6
    “Undistributed” disbursements and collections are the amounts resulting from the differences between
    the respective amounts reported to the U.S. Treasury by disbursing stations and the respective amounts
    reported to DFAS by the accounting offices.


                                                      9
manually create 53 trial balances for 16 entities and sub-entities. The manually
created trial balances were not complete because Reports on Budget Execution
do not contain financial data for the entire scope of an entity's operations, such
as accrued annual leave expenses; property, plant, and equipment; and related
depreciation. Additionally, amounts reported for accounts payable and accounts
receivable are not reported in separate intragovernmental and public categories,
as required for the financial statements. The combined balances for the
manually created trial balances were material to the financial statements of the
Other Defense Organizations. For example, the combined balances for
Appropriated Capital and Fund Balance With Treasury totaled $457 million and
$445 million, respectively.

        Abnormal Balances. The FY 2000 year-end trial balances used by the
Audited Financial Statements Team to prepare the financial statements for the
Other Defense Organizations included $3.9 billion of net abnormal balances.
Net abnormal balances ordinarily indicate that control weaknesses existed in the
processes accounting offices used to prepare the trial balances. During
FY 2000, the IG, DoD, audited mid-year trial balances for two accounting
offices and identified the control deficiencies listed in Table 3.

                 Table 3. Control Deficiencies Contributing to
                       Net Abnormal Account Balances
                          on Mid-Year Trial Balances

                                                       Defense
                                                        Agency      Washington
                                                       Financial    Headquarters
                                                       Services       Services
                                                      Accounting     Accounting
                Control Deficiency                       Office        Office


Ending balances from one fiscal year were not
  transferred as the beginning balances of the            N/A             √
  next fiscal year.

 Accruals and corresponding disbursements were
   not both recorded as either Government or               √              √
   non-Government transactions.

 Accrual adjustments affecting prior periods were
   not posted to the correct general ledger                √              √
   account in the current year.


Both accounting offices took corrective action, reduced abnormal balances on
the FY 2000 year-end trial balances, and anticipate fully implementing remedies
to correct the control deficiencies during FY 2001.




                                     10
            Consistency of Trial Balances and Reports on Budget
     Execution. The FY 2000 year-end trial balances and Reports on Budget
     Execution supplied to the Audited Financial Statements Team contained
     unreconciled differences of $89.5 billion for categories of similar financial data,
     such as:

             •   fund balance with the U.S. Treasury,

             •   accounts payable,

             •   accounts receivable, and

             •   appropriated capital.

     The differences should have been reconciled. DFAS Indianapolis (Sustaining
     Forces) did not have procedures in place to reconcile the differences between
     the two sets of data and attributed the differences to the lack of complete general
     ledger based systems supporting the Other Defense Organizations.

     Quality of Other Data Included in the Financial Statements. In addition to
     the Reports on Budget Execution and trial balances, the Audited Financial
     Statements Team compiled the financial statements using data supplied by
     various sources. IG, DoD, audits have identified control deficiencies related to
     the quality of data used to calculate the Military Retirement Health Benefits
     Liability estimate and the processes for reporting Department 97-funded
     property, plant, and equipment.


Monitoring
     Monitoring assesses the quality of internal control performance over time and
     involves assessing the design and operation of controls on a timely basis and
     taking necessary corrective actions. Monitoring activities are accomplished
     through ongoing activities, separate evaluations, or a combination of the two.

     For FY 2000, the DFAS Indianapolis (Sustaining Forces) Project Assessment
     Team continued to monitor and track financial reporting deficiencies and
     corrective actions taken. The Project Assessment Team used a tracking
     document known as the “DFAS Indianapolis (Sustaining Forces) Implementation
     Strategies for Other Defense Organizations-General Fund.” The team included
     representatives from each working group within DFAS Indianapolis (Sustaining
     Forces) responsible for initiating corrective actions, along with representatives
     from the IG, DoD. The Project Assessment Team continues to be an active and
     useful mechanism for monitoring the quality of the internal controls over
     financial reporting procedures at DFAS Indianapolis (Sustaining Forces).




                                            11
Management Comments on the Finding and Audit Response

    Although not required to comment, the Under Secretary of Defense
    (Comptroller) [(USD(C)] provided the following comments on the finding. For
    the full text of the USD(C) comments, see the Management Comments section
    of the report.

    USD(C) Comments. The Deputy CFO stated that for the finding section titled
    “Internal Control Components,” the report cites an incorrect reference. The
    Deputy CFO stated that OMB Circular A-127, “Financial Management
    Systems,” is the correct reference for this section of the finding because it
    incorporates the Joint Financial Management Improvement Program (JFMIP)
    systems concepts and requirements. As such, the DFAS centers and the
    Washington Headquarters Services should not be cited for not meeting the
    “Control Environment” requirement since no such requirement exists in the
    OMB circular and the JFMIP Core Financial Systems Requirements.

    Audit Response. The Inspector General, DoD, is required to audit according to
    the Government Auditing Standards and, by extension, the Statements on
    Auditing Standards. In accordance with these standards, we evaluated the DoD
    internal control structure using the five elements in Statement on Auditing
    Standards No. 78, “Consideration of Internal Control in a Financial Statement
    Audit: An Amendment of Statement on Auditing Standards No. 55.”

    USD(C) Comments. The Deputy CFO stated that in the finding section titled
    “Abnormal Balances for Closed Appropriations,” the report uses the wrong
    term. He stated that according to OMB Circular A-34, “Report on Budget
    Execution and Budgetary Resources,” technically, accounts are “closed,” while
    appropriations and balances are “canceled.”

    Audit Response. We agree and modified the title of the section and the report
    to state “appropriation account,” the exact term described in Section 3512,
    title 31, United States Code.

    USD(C) Comments. The Deputy CFO stated that in the finding section titled
    “Differences Between Reports on Budget Execution and U.S. Treasury
    Records,” the report cites an incorrect reference. He stated that the correct
    reference is OMB Circular A-34, “Report on Budget Execution and Budgetary
    Resources.”

    Audit Response. The citation in the report is correct. The Treasury Financial
    Manual, volume 1, part 2, chapter 5100, “Reconciling Fund Balance with
    Treasury Accounts,” was released in Treasury Transmittal Letter No. 588,
    “Heads of Government Departments, Agencies, and Others Concerned,
    October 18, 1999. The Treasury Financial Manual provides specific guidance
    on the detailed reconciliations that agencies should perform between expenditure
    records provided to U.S. Treasury and accounting records maintained by the
    agency. The inability of DoD to fully implement the required reconciliations
    contributed to the unreconciled discrepancies between the Other Defense
    Organizations Reports on Budget Execution and the U.S. Treasury records.



                                       12
USD(C) Comments. The Deputy CFO stated that in the finding section titled
“Consistency of Trial Balances and Reports on Budget Execution,” the report is
incorrect and the entire paragraph should be deleted. The Deputy CFO stated
that the general ledger balances cited in the audit report should not be reported
consistently based on OMB form and content instructions (the management side)
or OMB Circular No. A-34, instruction for the preparation of the SF-133,
“Report on Budget Execution and Budgetary Resources,” (the budget side).

Audit Response. We modified the report to add clarification. An agency
reports data that are common to both the trial balances and Reports on Budget
Execution. These sets of records should report data consistently and where
differences exist, the records should be reconciled to ensure that the differences
are legitimate.




                                    13
Review of Compliance With Laws and
  Regulations

Reportable Noncompliance

     Reportable instances of noncompliance are failures to follow requirements,
     laws, or regulations that cause us to conclude that the aggregation of the
     misstatements resulting from those problems is either material to the financial
     statements, or that the sensitivity of the matter would cause others to perceive it
     as significant.

     Our objective was to assess the compliance with laws and regulations related to
     the FY 2000 financial statements for Other Defense Organizations, and not to
     express an opinion. We performed our review in accordance with OMB
     Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,”
     October 16, 2000. Our review of DFAS Indianapolis (Sustaining Forces)
     identified noncompliance issues related to the Federal Financial Management
     Improvement Act of 1996 (FFMIA); section 3512, title 31, United States Code;
     and the CFO Act of 1990, and laws governing the claims of the United States
     government. Our limited review of the compliance with laws and regulations
     did not necessarily disclose all instances of potential noncompliance with laws
     and regulations that may be considered material to the financial statements for
     the Other Defense Organizations-General Funds reporting entity. (Appendix C
     shows laws and regulations reviewed.)


Federal Financial Management Improvement Act of 1996
     The FFMIA requires us to report whether the agency’s financial management
     systems substantially comply with Federal financial management system
     requirements, Federal accounting standards, and the U.S. Government Standard
     General Ledger at the transaction level. We performed our review on
     compliance with FFMIA in accordance with OMB Memorandum, “Revised
     Implementation Guidance for the Federal Financial Management Improvement
     Act,” January 4, 2001.

     Federal Financial Management System Requirements. Federal financial
     management system requirements were established in OMB Circular
     No. A-127, “Financial Management Systems,” July 23, 1993, which requires
     financial management systems to provide complete, reliable, consistent, timely,
     and useful information. The Joint Financial Management Improvement Program
     has published a series of Federal Financial Management System Requirements
     that establishes standard requirements for Federal agencies’ integrated financial
     management systems.

          DoD-Wide Systems. The Department of Defense Financial
     Management Improvement Plan, September 2000, acknowledges that the


                                         14
majority of the DoD-wide critical finance and accounting systems are not
compliant with Federal financial management systems requirements and
accounting standards. Because a large portion of Department 97 funds are
allocated to the Military Departments, many of the DoD-wide systems support
financial reporting for Department 97, and the deficiencies associated with those
DoD-wide systems affect the quality of the Other Defense Organizations
financial statements.

        DFAS Indianapolis (Sustaining Forces) Systems. Although the
FFMIA requires each agency to implement and maintain integrated financial
management systems, DFAS Indianapolis (Sustaining Forces) did not employ an
integrated financial management system for departmental financial reporting.
For example, DFAS Indianapolis (Sustaining Forces) used the Program Budget
Accounting System to account for funding; the “TI [Treasury Index] 97
Application” to prepare Reports on Budget Execution; miscellaneous systems to
report on expenditures; and an entirely separate set of systems for compilation.

Federal Accounting Standards. Federal agencies reporting under the
Government Management Reform Act of 1994 are required to follow the
Statements of Federal Financial Accounting Standards (SFFAS) agreed to by the
Director, OMB; the Comptroller General of the United States; and the Secretary
of the Treasury. Several examples of non-compliance are described below.

        Fund Balance With Treasury. The DFAS Indianapolis (Sustaining
Forces) could not reconcile differences of $5.8 billion for disbursements and
$1.9 billion for collections between the Reports on Budget Execution and the
U.S. Treasury Records because the financial statements are not in compliance
with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”
March 30, 1993. When reporting Fund Balance With Treasury, SFFAS No. 1
requires Federal entities to explain discrepancies between the entity’s records;
reconcile discrepancies resulting from time lag; and correct discrepancies
resulting from error.

        Reliability of Financial Reports. The DFAS Indianapolis (Sustaining
Forces) could not reconcile $89.5 billion of differences between the trial
balances and Reports on Budget Execution because the financial reporting
process and financial statements did not comply with Statement of Federal
Financial Accounting Concepts No. 1, chapter 6, “Qualitative Characteristics of
Information in Financial Reports,” September 2, 1993. Concept No. 1
establishes the following six objectives for financial reporting:
understandability, reliability, relevance, timeliness, consistency, and
comparability. Until the material differences between the trial balances and
Reports on Budget Execution are reconciled, the financial statements will not
meet the objective of being reliable.

U.S. Government Standard General Ledger. The OMB requires Federal
agencies to implement the U.S. Government Standard General Ledger in their
financial systems at the transaction level. Federal agencies are permitted to
supplement their application of the U.S. Government Standard General Ledger
to meet agency-specific information requirements, but those general ledgers
must maintain consistency with the U.S. Government Standard General Ledger.
The accounting offices supporting the Other Defense Organizations continue to


                                    15
            use multiple general ledgers and, as shown previously in this report, material
            portions

            of the financial statements, including $445 million in Fund Balance With
            Treasury, were prepared from Reports on Budget Execution, rather than from
            standard general ledgers.


Section 3512, Title 31, United States Code
            The evaluation and reporting requirements of the Federal Managers’ Financial
            Integrity Act of 1982 for an agency’s internal accounting and administrative
            control systems were incorporated in section 3512, title 31, United States Code
            (31 U.S.C. 3512). That section requires DoD to evaluate the systems and to
            annually report whether those systems are in compliance with 31 U.S.C. 3512.

            DFAS FY 2000 Statement of Assurance. In FY 2000, DFAS reported
            material internal control weaknesses involving noncompliance with accounting
            principles, standards, and other requirements. Specifically, DFAS reported
            35 open material weaknesses in its FY 2000 Annual Statement of Assurance.
            Of the 35 weaknesses, 17 weaknesses directly affected the accounting data that
            DFAS Indianapolis (Sustaining Forces) used to prepare the FY 2000 financial
            statements of Other Defense Organizations and the FY 2000 DoD Agency-wide
            financial statements. The weaknesses, according to the DFAS FY 2000 Annual
            Statement of Assurance, included the following topics:

                     •   general ledger control and financial reporting,

                     •   abnormal departmental report balances,

                     •   accounting system compliance,

                     •   fund balance with the U.S. Treasury,

                     •   system interfaces and system access,

                     •   controls over travel payments, and

                     •   expenditure authority for foreign military sales disbursements.

            Department of Defense Financial and Feeder Systems Compliance Process.
            In January 2001, the Under Secretary of Defense (Comptroller) formally
            implemented the Department of Defense Financial and Feeder Systems
            Compliance Process, hereafter referred to as the compliance process, and
            established the Senior Financial Management Oversight Council to oversee the
            process. The purpose of the compliance process is to ensure that all critical
            accounting, finance, and feeder systems7 are compliant with Federal financial
            management systems requirements. If the compliance process functions as

7
    Program feeder systems are automated or manual information systems operated by the Military
     Departments and the Defense agencies, which contain day-to-day operating information that require
     translation into financial information which is then processed in the finance and accounting systems.


                                                       16
     intended, DoD should make progress on resolving open material weaknesses
     and improving the quality of financial management systems.


Chief Financial Officers Act of 1990
     The CFO Act of 1990, as amended by the Federal Financial Management Act
     of 1994, requires DoD to prepare audited financial statements and to submit
     them to OMB no later than March 1 of each year. In the DoD Financial
     Management Improvement Plan, September 2000, DoD management
     acknowledged that major financial reporting deficiencies contributed to DoD not
     receiving an audit opinion and presented implementation strategies focused on
     correcting deficiencies in the following areas:

            •   inventory;

            •   property, plant, and equipment;

            •   future liabilities;

            •   U.S. Treasury fund balances; and

            •   intragovernmental eliminations.

     DoD acknowledged that many accounting systems and feeder systems were not
     compliant with established regulatory requirements or had not been reviewed.
     Until DoD corrects ongoing deficiencies and develops fully compliant systems,
     financial reporting for the Other Defense Organizations will contribute to the
     Defense Agency-wide financial statements not receiving a favorable audit
     opinion.


Provisions Governing Claims of the United States Government
     Public Law 89-508, “Federal Claims Collection Act of 1966,” (codified as
     31 USC 3711(a)(1)) requires DoD to attempt to collect all claims of the United
     States for money or property arising out of DoD activities or activities referred
     to DoD. Public Law 97-365, “Debt Collection Act of 1982,” (codified as
     31 USC 3716 and 3717) allows DoD to collect a claim by means of
     administrative offset within 10 years, to charge a minimum annual rate of
     interest on outstanding debts, and to assess charges to cover the costs of
     processing and handling delinquent claims. Additionally, Public Law 104-134,
     “Debt Collection Improvement Act of 1996,” (codified as
     31 USC 3711(g)(1)(A)) requires DoD to transfer to the Treasury Department
     any debts delinquent for at least 180 days. The Treasury Department is then
     responsible to either take action to collect the debt or to terminate collection
     actions on the debt or claim.

     During FY 2000, DoD had 204 open debts totaling $47.2 million with 37 large
     DoD contractors, some of which have remained open since the mid-1980s.
     Specifically, 29 claims for $8.6 million were apparently invalid, and the
     collection period had apparently lapsed for 9 claims valued at $0.4 million.

                                         17
Debts remained open for these DoD contractors because DoD did not identify
all debts in a timely manner and did not actively work to collect or resolve these
debts. As a result, DoD had not collected $38.2 million in contractor debt.
These claims included an undetermined number of contracts funded with
Department 97 funds.




                                    18
Appendix A. Audit Process


Scope

    Financial Information, Procedures, and Controls Reviewed. We are not
    expressing an opinion on the FY 2000 financial statements for Other Defense
    Organizations. Our audit was designed to support the FY 2000 DoD
    Agency-wide financial statements, and we focused on Other Defense
    Organizations-General Funds. We reviewed the Reports on Budget Execution,
    and we specifically looked at abnormal balances, differences between the
    Reports on Budget Execution and U.S. Treasury Records, and differences
    between the Reports on Budget Execution and trial balances. We also reviewed
    data supporting the Balance Sheet, the Statement of Net Cost, the Statement of
    Net Position, the Statement of Budgetary Resources, the Statement of
    Financing, and notes to the financial statements. We reviewed the procedures
    and controls to accumulate financial data; produce appropriation-level reports
    submitted to the OMB, the Under Secretary of Defense (Comptroller), and
    DFAS; and to prepare the financial statements. We also reviewed the FY 2000
    DoD Financial Management Improvement Plan, the DFAS Arlington and DFAS
    Indianapolis (Sustaining Forces) FY 2000 Annual Statements of Assurance, and
    prior audit reports. In a later audit, we plan to evaluate specific procedures that
    DFAS used to compile and report on the FY 2000 financial statements for Other
    Defense Organizations. We did not review supporting financial data and
    financial reports related to the Other Defense Organizations-Working Capital
    Funds.

    Accounting Principles. Accounting principles and standards for the Federal
    Government have been issued and are undergoing further development and
    refinement. The Federal Accounting Standards Advisory Board was established
    by the Director, OMB; the Secretary of the Treasury; and the Comptroller
    General of the United States. On October 19, 1999, the American Institute of
    Certified Public Accountants recognized the Federal Accounting Standards
    Advisory Board as the body to establish generally accepted accounting principles
    for Federal governmental entities. Therefore, Statements of Federal Financial
    Accounting Standards issued by the Federal Accounting Standards Advisory
    Board are recognized as generally accepted accounting principles for applicable
    Federal governmental entities.

    Agencies are required to follow the hierarchy of accounting principles outlined
    in OMB Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” October 16, 1996, as amended on September 11, 2000. The
    hierarchy is as follows:




                                        19
       •   standards agreed to and published by the Director, OMB; the
           Secretary of the Treasury; and the Comptroller General of the United
           States;

       •   interpretations of the Statements of Federal Financial Accounting
           Standards issued by OMB;

       •   requirements for the form and content of financial statements outlined
           in OMB Bulletin No. 97-01; and

       •   accounting principles published by other authoritative sources.

DoD-Wide Corporate–Level Government Performance and Results Act
Goals. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures:

       •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains
           U.S. qualitative superiority in key warfighting capabilities.
           Transform the force by exploiting the Revolution in Military Affairs,
           and reengineer the Department to achieve a 21st century
           infrastructure. (01-DoD-2)

       •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
           financial and information management. (01-DoD-2.5)

       •   FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and financial systems. (01-DoD-2.5.1)

       •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
           opinions on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Objectives and Goals. Most major DoD
functional areas have also established performance improvement reform
objectives and goals. This report pertains to achievement of the following
functional area objective and goal.

       •   Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers' Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the DoD Financial Management high-risk area.




                                   20
Methodology

    Auditing Standards. This audit was performed in accordance with auditing
    standards issued by the Comptroller General of the United States and OMB, as
    implemented by the IG, DoD, based on the objectives of the audit and the
    limitations to the scope described in the report. Accordingly, we included such
    tests of internal controls as we considered necessary.

    Computer-Processed Data. We used computer-processed data in this audit;
    however, we did not confirm the reliability of the data because the accounting
    systems used to prepare the financial statements for Other Defense
    Organizations had serious limitations. The lack of reliable financial information
    was described as a material management control deficiency in the DFAS Annual
    Statements of Assurance for FY 2000. The lack of reliable information did not
    adversely affect our analysis.

    Audit Period and Location. We performed this financial-related audit from
    October 2000 through February 2001 at DFAS Indianapolis (Sustaining Forces).

    Contacts During the Audit. We visited and contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage

    The General Accounting Office and the IG, DoD, have conducted multiple
    reviews related to financial statement issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov. IG, DoD, reports can
    be accessed on the Internet at http://www.dodig.osd.mil.




                                       21
Appendix B. Other Defense Organizations-
            General Funds
           The list of 51 Other Defense Organizations-General Funds for FY 2000
           compiled in this appendix includes trust funds and revolving funds not included
           in Treasury basic symbol 4930, Defense Business Operation Funds (known as
           “Defense Working Capital Fund”). DoD Regulation 7000.14-R,
           “DoD Financial Management Regulation,” volume 6B, chapter 2, “General
           Instructions for the Financial Statements,” October 2000, identifies most of the
           Other Defense Organizations. Additional Other Defense Organizations funded
           with Department 97 funds, but not listed in the DoD Regulation 7000.14-R, are
           included in the list below and distinguished by footnotes.

                    American Forces Information Service
                    Ballistic Missile Defense Organization
                    Defense Acquisition University
                    Defense Advanced Research Projects Agency
                    Defense Building Maintenance Fund

                    Defense Commissary Agency
                    Defense Contract Audit Agency
                    Defense Contract Management Agency
                    Defense Emergency Response Fund
                    Defense Finance and Accounting Service

                    Defense Health Program
                    Defense Homeowners Assistance Fund
                    Defense Information Systems Agency
                    Defense Intelligence Agency
                    Defense Legal Services Agency

                    Defense Logistics Agency
                    Defense Manpower Data Center Facility1
                    Defense Medical Program Activity
                    Defense Prisoner of War/Missing Persons Office
                    Defense Security Cooperation Agency

                    Defense Security Service
                    Defense Threat Reduction Agency
                    DoD Component Level Accounts
                    DoD Education Activity
                    DoD Education Benefits Fund




1
    This Department 97-funded organization is not listed in DoD Regulation 7000.14-R.


                                                    22
                    DoD Human Resources Activity
                    Federal Energy Management Program
                    Foreign National Employees Separation Pay Accounts Trust Fund2
                    Joint Chiefs of Staff
                    Joint Logistics Systems Command

                    National Defense Stockpile Transaction Fund
                    National Imagery and Mapping Agency
                    National Security Agency
                    National Security Education Trust Fund
                    Office of Economic Adjustment

                    Office of the Inspector General, DoD
                    Office of the Secretary of Defense (OSD)3
                    Other Prior Year Residual “97” Funds
                    Other "97" Funds Provided to the Air Force by OSD
                    Other "97" Funds Provided to the Army by OSD

                    Other "97" Funds Provided to the Navy by OSD
                    Other "97" Funds Provided to Washington Headquarters Services by
                    OSD
                    Pentagon Reservation Maintenance Revolving Fund
                    Ready Reserve Mobilization Income Insurance Fund
                    Technical Research Institute

                    Tricare Management Activity
                    U.S. Court of Appeals of the Armed Forces
                    U.S. Special Operations Command
                    Uniformed Services University of the Health Sciences2
                    Voluntary Separation Incentive Trust Fund

                    Washington Headquarters Services




2
    This Department 97-funded organization is not listed in DoD Regulation 7000.14-R.
3
    “OSD” is the acronym for Office of the Secretary of Defense.


                                                    23
Appendix C. Laws and Regulations
            Anti-deficiency Act (sections 1341(a)(1)(A) and (C), and section 1517(a),
            title 31, United States Code).

            Pay and Allowance System for Civilian Requirements (sections 5332 and 5343,
            title 5, United States Code; and section 206, title 29, United States Code).*

            Public Law 104-208, “Federal Financial Management Improvement Act
            of 1996,” September 30, 1996.

            Public Law 104-134, “Debt Collection Improvement Act of 1966,” April 26,
            1996, (section 3711(g)(1)(A), title 31, United States Code).

            Public Law 103-356, “Federal Financial Management Act of 1994,”
            October 13, 1994 (section 65, title 31, United States Code).

            Public Law 101-576, “Chief Financial Officers Act of 1990,” November 15,
            1990 (section 501, title 31, United States Code).

            Public Law 101-508, “Federal Credit Reform Act of 1990,” November 5, 1990,
            (section 661(b) and (e), title 2, United States Code).

            Public Law 97-365, “Debt Collection Act of 1982,” October 25, 1982,
            (sections 3701(a)(1), 3716, 3717, title 31, United States Code).

            Public Law 97-255, “Federal Managers’ Financial Integrity Act of 1982,”
            September 8, 1982 (section 3512, title 31, United States Code).

            Public Law 97-177, “Prompt Payment Act,” May 21, 1982, (sections 3901(a),
            (b), and (f), and 3904, title 31, United States Code).*

            Public Law 89-508, “Federal Claims Collection Act of 1966,” July 19, 1966,
            (section 3711(a)(1), title 31, United States Code).

            OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
            Statements,” October 16, 2000.

            OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
            October 16, 1996, as amended September 11, 2000.

            OMB Circular No. A-34, “Instructions on Budget Execution,” December 1995,
            revised November 7, 1997.




*
    The scope of the audit primarily addressed control deficiencies identified at the compilation level;
    therefore, we did not review these requirements as listed in OMB Bulletin No. 01-02.


                                                        24
OMB Circular No. A-127, “Financial Management Systems,” as revised
July 23, 1993.

OMB Memorandum “Revised Implementation Guidance for the Federal
Financial Management Improvement Act,” January 4, 2001.




                                25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs




                                           26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         27
Office of the Under Secretary of Defense
(Comptroller) Comments




                   29
30
31
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Sandra L. Fissel
Jonathan R. Witter
Juana R. Smith
Karen J. Lamar
Jennifer R. Siwula
Dwayne A. Coulson
Carol J. Gresham
